                                                                       AUDIT




FINANCIAL ASSISTANCE AUDIT
Cooperative Agreement No. JSA071001/L08AC13913 Between the
Utah Correctional Industries and the Bureau of Land Management




Report No.: WR-CA-BLM-0013-2013                                  September 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT                 OF THE INTERIOR

                                                                                                   September 27,2013

Memorandum

To:            Maria Gochis
               Grants Management Officer, Utah State Office


From:
               Bureau of Land Management

               Michael P. Colombo
               Western Regional Man~o~ts,
                                          {)
                                                   ~

                                                                  a            /D
                                                                       nsp ctions, and Evaluations

Subject:       Final Audit Report - Cooperative Agreement No. JSA0710011L08AC13913
               between the Utah Correctional Industries and the Bureau of Land Management
               Report No. WR-CA-BLM-0013-2013

        This report presents the results of our audit of reported costs submitted by the State of
Utah, Department of Corrections, Correctional Industries Division (Utah Correctional Industries,
or UCI) under cooperative agreement number JSA071001/L08AC13913             with the Bureau of
Land Management (BLM). UCI reported total expenditures of $5,338,880 on its final Federal
Financial Report (SF 425). We identified questioned costs of$1,076,464 and unsupported costs
of $928,089. The "Results of Audit" section of this report provides details on these costs.

Background

        UCI is a division of the State of Utah's Department of Corrections and offers products
and services to State agencies, local governments, and institutions of higher learning. As part of
its mission to train inmates in realistic work environments to gain the skills needed to return to a
productive life in society, UCI employs inmate labor to provide its products and services. UCI
offers products such as office furniture, clothing, and mattresses, as well as labor-intensive
services such as general construction, roofing, and pavement crack sealing. UCI is completely
self-supported and derives its revenues solely from the sales of its products and services.

        On March 19,2007, BLM entered into a cooperative agreement with UCI for a horse-
gentling program. According to the cooperative agreement, the horse-gentling program would
further BLM's Wild Horse and Burro Program by increasing the number of horses available for
adoption by the public. In return, the horse-gentling program would provide inmates with work
opportunities and rehabilitation through caring for, feeding, training, and gentling wild horses.
Under the cooperative agreement, UCI would establish the program at the Central Utah
Correctional Facility in Gunnison, UT, and BLM would house its wild horses there under the
Wild Horse and Burro Program.

        According to the cooperative agreement, 30 to 50 horses would be trained annually. The
horse-gentling program started in April 2007 with 99 horses. The number of horses held at the



                         Office of Audits,   Inspections,   and Evaluations   I Sacramento,   CA
UCI facility increased rapidly, to about 1,500 in September 2012. Most of these horses were not
being trained, but were being stabled at the facility on a short-term basis.

        The cooperative agreement was amended a number of times to extend the performance
period and add to program funding. The performance period of the agreement ran from
March 19, 2007, to September 30, 2012, and the total amount of Federal funding committed by
BLM was $5,338,880. In addition, UCI agreed to fund $154,714. UCI agreed to provide facilities
at Gunnison that conformed to BLM guidelines and specifications at no cost to BLM. At the time
of our audit, UCI was continuing to operate the program under a follow-on cooperative
agreement with BLM.

        BLM’s cooperative agreement provided that BLM would reimburse UCI for each horse
held at UCI’s facility at a rate of $2.75 per head per day. BLM and UCI jointly agreed to
increase the reimbursement rate three times during the performance period, with the last rate in
effect being $3.55. The agreement also provided that BLM would reimburse the actual costs
incurred for veterinarian services and supplies as well as costs for euthanizing and removal of
suffering animals.

        The cooperative agreement specifically referenced the Code of Federal Regulations
(C.F.R.) for cost sharing and program income and stated that the award to UCI was subject to the
terms and conditions incorporated by reference in the C.F.R., including the administrative and
audit requirements and cost principles for assistance programs (43 C.F.R. § 12(C)).

Objectives

The objectives of our audit were to determine whether reported costs were—

      allowable under applicable Federal laws and regulations;
      allocable to the cooperative agreement and incurred in accordance with its terms and
       conditions; and
      reasonable and supported by the recipient’s records.
To meet the objectives of the audit, we—

      interviewed the grants management officer, the UCI division director, and other
       appropriate individuals;
      obtained information from UCI on the number of horses held at the Gunnison facility
       over the life of the agreement;
      reviewed cost sharing and program income under the agreement;
      reviewed the cooperative agreement and the C.F.R. for criteria pertaining to the horse-
       gentling program; and
      reviewed support for reported costs provided by UCI.




                                                2
Scope

       Our audit work included reviewing UCI’s reported costs from March 19, 2007, to
September 30, 2012, totaling $5,338,880 following two approaches. First, we obtained
information from UCI on the number of horses held at the Gunnison facility over the life of the
agreement, and determined the amount reimbursable to UCI based on the rates contained in the
cooperative agreement. Second, we obtained UCI financial statements and reports from their
accounting system to determine allowable costs as defined by 43 C.F.R. §12.62.

Methodology

       We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

       We performed our audit without the benefit of a technical evaluation. Accordingly, our
opinions and conclusions are qualified to the extent that a technical evaluation may affect the
allowability and reasonableness of the proposed costs. Our conclusions on questioned and
unsupported costs are discussed in the “Results of Audit” section of this report.

Results of Audit

        We based our determination of questioned and unsupported costs on our review and
evaluation of UCI’s reported costs. We questioned costs that were not allowable under terms of
the agreement and applicable provisions of the C.F.R. In addition, we identified costs as
unsupported when sufficient documentation related to the costs was not available for review. Of
the $5,338,880 reported by UCI, we questioned $1,076,464 and classified $928,089 as
unsupported. The results of our review are summarized in the table below.




                                                3
         Questioned and Unsupported Costs under Cooperative Agreement Number
                             JSA071001/L08AC13913


                        Recorded
                         Costs         Questioned         Unsupported        Difference
     Description        (Note 1)         Costs               Costs            (Note 2) Notes
 Direct labor             $1,019,896                                           $1,019,896
 Contractual services         23,077                               $23,077                       3
 Equipment rental             10,593                                   959         9,634         4
 Motor pool vehicles          52,477                                              52,477
 Building and grounds        125,588           $125,588                                          5
 Equipment                    27,976                                               27,976
 Hay purchases             2,174,788                               137,691      2,037,097        6
 Shop supplies                18,526                                               18,526
 Inmate labor                103,531                                              103,531
 Depreciation                 19,539              8,298                            11,241        7
 Other direct costs           14,255                                 1,430         12,825        8
 Total direct costs       $3,590,246           $133,886           $163,157     $3,293,203
 Indirect costs              806,056                               764,932         41,124        9
 Total direct and
 indirect costs           $4,396,302           $133,886           $928,089     $3,334,327
 Net reimbursable
 costs less than
 agreement amount             39,683             39,683                                         10

 Recorded costs less
 than reimbursable
 costs per terms of
 cooperative
 agreement                   902,895            902,895                                         11
 Total                    $5,338,880         $1,076,464           $928,089     $3,334,327

Notes

1.    Recorded Costs

      The direct costs shown in this column are from UCI’s monthly accounting system expense
      reports that it recorded for the horse-gentling program. We included in the “hay purchases”
      cost the amount recorded in UCI’s asset account because UCI’s recorded hay expenses
      represented only the amount of hay used. The indirect costs are from the monthly profit and
      loss statements prepared by UCI for the horse-gentling program.

      The $5,338,880 total of this column represents the expenditures that UCI reported under the
      cooperative agreement on its final Federal Financial Report. A UCI official told us that the
      amount reported was based on the total amount funded by BLM and that UCI did not bill
      BLM based on recorded costs. UCI was unable to provide any documentation to support the
      composition of the expenditures it reported. BLM’s grants management officer provided us


                                                 4
        with documents confirming that this was the amount that BLM paid UCI under the
        agreement.

        The differences between the total direct and indirect costs and the reported expenditures are
        discussed further in the cited notes.

2.      Difference

        We presented the amounts in this column solely for BLM’s convenience. They are not
        audit-approved or recommended amounts. Our office does not approve or recommend these
        costs because those amounts depend partly on factors outside the realm of accounting
        expertise, such as opinions on technical matters.

3.      Contractual Services

        UCI did not provide documentation to support the $23,077 in costs recorded under the
        contractual services account. This amount consisted of a fiscal year 2012 journal entry to
        move costs of building corrals to expense. We therefore classified the $23,077 as
        unsupported.

4.      Equipment Rental

        UCI did not provide documentation to support two transactions recorded under the
        equipment rental account. The amounts of the transactions from fiscal year 2011 were $459
        and $500. We therefore classified $959 of equipment rental costs as unsupported.

5.      Building and Grounds

        Section III.A.6 of the cooperative agreement states: “[T]he recipient agrees to provide
        facilities that conform to BLM guidelines and specifications at no cost to the BLM.” Based
        on this language and the provision that UCI would fund a share of the program costs itself,
        we questioned the $125,588 of recorded building and grounds costs.

6.      Hay Purchases

        UCI’s monthly accounting system expense reports show a net $2,037,097 of expenses for
        hay used during the period of the cooperative agreement. UCI officials and the grants
        management officer told us, however, that under the current follow-on cooperative
        agreement, BLM is reimbursing UCI for the cost of the hay purchased rather than the hay
        used. UCI reported in its financial statements $137,691 of hay in inventory as of
        June 30, 2012, the end of the State of Utah’s fiscal year.1 According to 2 C.F.R. § 225
        (Office of Management and Budget Circular A-87), direct costs chargeable to Federal
        awards can include the cost of materials acquired, consumed, or expended specifically for
        the purpose of those awards. We therefore added these two amounts to arrive at recorded


1
    UCI did not provide us with its asset account balance as of September 30, 2012.

                                                                 5
     hay purchase expenses of $2,174,788 and classified the $137,691 as unsupported because
     we could not determine the disposition of UCI’s hay inventory.

7.   Depreciation

     Included in the depreciation expense account for the horse-gentling program was $8,298 of
     depreciation relating to the horse building. We questioned this cost because the cooperative
     agreement stated that UCI would provide the facilities at no cost to BLM.

8.   Other Direct Costs

     We combined the expenses from 23 expense accounts that had totals of less than $10,000
     over the period of the cooperative agreement. From our sample of expenses recorded in
     these accounts, UCI did not provide us documentation to support four transactions as shown
     in the table below. We therefore classified $1,430 of other direct costs as unsupported.

                               Other Unsupported Direct Costs

                                                           Fiscal
                                   Account                 Year      Amount
                      Advertising and legal publications      2007       $546
                      Repairs to damaged vehicles             2008         225
                      Repairs to damaged vehicles             2011         159
                      Regulate fees license permits           2008         500
                      Total                                             $1,430

9.   Indirect Costs

     UCI’s monthly profit and loss statements show $806,056 of indirect costs for the horse-
     gentling program. UCI allocated these costs on the profit and loss statements based on the
     revenues of each of the UCI programs. Appendix E to 2 C.F.R. § 225 provides that State
     government units desiring to claim indirect costs under assistance agreements must prepare
     indirect cost rate proposals for submission to their cognizant Federal agencies. UCI did not
     have indirect cost rates approved for most of the agreement’s performance period. On
     July 15, 2013, however, the Interior Business Center approved a provisional indirect cost
     rate of 67.51 percent of total direct costs, less capital expenditures, passthrough funds, and
     horse feed (hay), for the period July 1, 2012, through June 30, 2013. Based on the recorded
     direct costs for July 1 to September 30, 2012, we computed allowable indirect costs of
     $41,124 as shown in the following table.




                                                      6
            Allowable Indirect Costs for July 1, 2012 – September 30, 2012

                            Description                 Amount
                            Direct labor                  $54,459
                            Motor pool vehicles               821
                            Buildings and grounds             164
                            Other direct costs              1,278
                            Hay purchases                  38,286
                            Inmate labor                    4,358
                            Depreciation                    2,126
                            Total direct costs           $101,492
                            Less hay purchases             38,286
                            Less capital expenditures
                            Buildings and grounds             164
                            Depreciation                    2,126
                            Adjusted direct costs         $60,916
                            Indirect cost rate             67.51%
                            Allowable indirect costs      $41,124



   In the absence of approved indirect cost rates for the balance of the agreement’s
   performance period, we classified the remaining $764,932 of indirect costs as unsupported.

10. Net Reimbursable Costs Less Than Agreement Amount

   Using the reimbursement provisions provided for in the cooperative agreement, we
   computed a reimbursable amount of $5,317,888. This computation is based on applying the
   daily rates identified in the cooperative agreement to the daily horse counts according to
   records provided by UCI. A UCI official told us that UCI did not incur any costs for
   veterinary services or euthanizing horses as BLM directly funded these types of costs.

   UCI also received program income during the operation of the program. As this income was
   generated through horse adoptions, UCI should have reported it to BLM as required by the
   cooperative agreement, but it did not. Based on our review of UCI’s revenue account for the
   horse-gentling program, we determined that UCI received $18,691 from horse adoptions
   that exceeded the base fees that were paid to BLM.

   The cooperative agreement states that program income will be accounted for in accordance
   with 43 C.F.R. § 12.65. Subsection (g) of this C.F.R. provision states that program income
   will be deducted from total allowable costs to determine net allowable costs.

   By deducting program income from reimbursable costs calculated in accordance with the
   language of the cooperative agreement, we computed net reimbursable costs of $5,299,197.
   We therefore questioned the $39,683 of reported costs that exceed the net reimbursable
   amount, as follows:




                                                7
                      Costs that Exceed the Net Reimbursable Amount

                                                 Horse
                         Date                    Count        Rate/Day      Total
             April 2007 to June 2008                180,165         2.75     $495,454
             July 2008 to June 2011                 911,966         3.05     2,781,496
             July to September 2011                 102,607         3.30       338,603
             October 2011 to September 2012         479,531         3.55     1,702,335
             Reimbursable costs                                             $5,317,888
             Less program income                                                18,691
             Net reimbursable costs                                         $5,299,197
             Agreement amount                                                5,338,880
             Difference questioned                                             $39,683



11. Recorded Costs Less Than Net Reimbursable Costs

    UCI’s accounting system showed direct horse-gentling program expenses totaling
    $3,452,555 for the period of the cooperative agreement. In addition to these expenses, UCI’s
    financial statements show that UCI spent an additional $137,691 on hay that was paid for
    but not used at the end of the performance period. UCI’s profit and loss statements showed
    $806,056 of indirect costs allocated to BLM’s horse-gentling program. UCI’s total direct
    and indirect costs for BLM’s horse-gentling program therefore totaled $4,396,302. This
    amount is $902,895 less than the $5,299,197 of net reimbursable costs computed under the
    terms of the cooperative agreement. We classified the difference as questioned per 43 C.F.R.
    § 12.62 (a)(2), which states that any fee or profit of the recipient, or other increment above
    allowable costs, may not be funded with Federal assistance funds.


Other Issues

     The cooperative agreement provides for reimbursement using specified rates instead of
providing for cost reimbursement in accordance with 43 C.F.R. § 12.62. The results of our audit
identified questioned costs of $39,683 based on the application of the rates identified in the
cooperative agreement. Using the criteria contained in 43 C.F.R. § 12.62, we questioned an
additional $1,036,781 and classified $928,089 as unsupported. The scope of our audit did not
include reviewing legal issues pertaining to the apparently conflicting reimbursement provisions
of the cooperative agreement. We therefore suggest that BLM work with the Solicitor’s Office in
reviewing and resolving the report’s questioned and unsupported costs.

     In addition, we found that UCI’s accounting systems do not fully comply with the standards
set forth in 43 C.F.R. § 12.60 for financial reporting, budget control, and allowable costs. UCI
officials told us that the horse-gentling program is the first and only Federal assistance program
UCI has had. Its financial statements and supporting accounting records are based on standards
applicable to enterprise funds, which are akin to business operations and not typical
governmental operations. We believe UCI did not adapt its accounting systems to the C.F.R.

                                                8
standards because of confusion resulting from the agreement's reimbursement terms and
directions given by the grants management officer. We suggest that in future cooperative
agreements, BLM clearly delineate the financial management expectations and requirements of
the C.F.R.

Response to Report

        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to this report by December 30,2013. Please include copies of documentation
related to the final disposition of these costs in your response. If final disposition of these costs is
not obtained by the requested date, please provide information on actions taken or planned, as
well as target dates and title(s) of the official(s) responsible for implementation.

Please address your response to:

                       Michael P. Colombo
                       Western Regional Manager for Audits, Inspections, and Evaluations
                       U.S. Department of the Interior
                       Office of Inspector General
                       2800 Cottage Way, Suite E-2712
                       Sacramento, CA 95825

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented. If you
have any questions regarding this report, please call Thomas Kossow, team lead, at 916-978-
5645, or me at 916-978-5653.




                                                   9
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
